HHS/OIG - Audit, "Review of Unobligated Balances and Cost Matching in the Title IV-B, Subpart 2, Promoting Safe and Stable Families Program",(A-06-02-00011)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unobligated Balances and Cost Matching in the Title IV-B,
Subpart 2, Promoting Safe and Stable Families Program," (A-06-02-00011)
April 22, 2002
Complete
Text of Report is available in PDF format (1.0 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report consolidates the results of five State
reviews.  Objectives were to determine:  (1) if the five States were
using all Federal funds available to them for the Promoting Safe and Stable
Families program, and (2) if the selected States met their cost matching requirements.
Our review showed that the five States:  (1) did not use $66.5 million
or 34 percent of the $197.7 million available for Fiscal Years 1994 through
1999, and (2) met the required 25 percent State cost match for the Federal funds
expended during each year of participation.  The unobligated funds could
not be used by other States because the program statute did not provide reallotment
authority.  During our review, the Administration for Children and Families
(ACF) submitted proposed legislation that would provide it with reallotment
authority.  The proposed legislation was signed into law on December 18,
2001.  We recommended that ACF:  (1) more closely monitor program
performance in the States to ensure accurate and timely financial reporting;
and (2) establish a mechanism to identify grant funds in sufficient time to
allow reallotment for other States' use.  The ACF generally agreed with
our findings and recommendations.